Supreme Court, U.S.
FILED

MAY 2 t 2021
No.

2.0-ItU

In The

William B. Trescott
Petitioner
v.
Federal Motor Carrier Safety Administration
Respondent

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

William B. Trescott
26276 Farm to Market Road 457
Bay City, Texas 77414
(979) 244-3134

OFFICE OF THE CLERK

QUESTIONS PRESENTED
1.
Is it Constitutional for a court to defer to a
person lacking professional experience under
Chevron, U.S. A., Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837 (1984), or does the 14th
Amendment require “that the courts make certain
that professional judgment in fact was exercised” as
this Court ruled in Youngberg v. Romeo, 457 U.S.
307 at 321 (1982)?
2.

Can an agency rely solely on public comments
to determine that a state health and safety law is an
“unreasonable burden on interstate commerce” as
the 9th Circuit ruled in Inti B’hood of Teamsters,
Local 2785 v. Fed. Motor Carrier Safety Admin., 986
F.3d 841, 857 (9th Cir. 2021), or if it thinks that the
health effects are not problematic, does the Due
Process Clause require it to “say so in the rule and to
explain why” as the DC Circuit ruled in Public
Citizen v. FMCSA, 374 F.3d 1209, 1217 (D.C. Cir.
2004)?

11

PARTIES
Petitioner is^
William B. Trescott, a trucker by trade who has not
issued debt securities to the public.
Respondent isThe Federal Motor Carrier Safety Administration.
Petitioners before the Ninth Circuit wereInternational Brotherhood of Teamsters, Locals 848
and 2785; Everardo Luna; Charles “Lucky” Lepins;
Julio Garcia; Jesus Maldonado; Jose Paz; Duy Nam
Ly5 Phillip Morgan; and The Labor Commissioner
For The State of California.
Intervenor before the Ninth Circuit wasWilliam B. Trescott.
Amici Curiae before the Ninth Circuit wereThe State pf Washington; State and National Em­
ployment Lawyers Associations; Specialized Carriers
& Rigging Association, PODS Enterprises LLC,
Ryder System Inc., Western States Trucking Associa­
tion; American Trucking Associations Inc., California
Trucking Association, Washington Trucking Associa­
tions, Intermodal Association of North America,
American Moving and Storage Association; CRST
Expedited Inc., FAF Inc., Heartland Express Inc.,
John Christner Trucking LLC, Penske Logistics
LLC, Penske Truck Leasing Co. L.P., Rail Delivery
Services Inc., U.S. Xpress Inc; and, The Chamber of
Commerce of the United States.

Ill

TABLE OF CONTENTS
Questions Presented

1

Parties and Corporate Disclosure

n

Table of Authorities

IV

Opinions Below

1

Jurisdiction

1

Constitutional and Statutory
Provisions Involved................

1

Statement of the Case

3

Reason For Granting the Writ

10

The Ninth Circuit has entered a decision that has
so far departed from the accepted and usual course of
judicial proceedings as to call for an exercise of this
Court’s supervisory power
10
Conclusion

20

Appendix:
OPINION: Ninth Circuit..
ORDER: Ninth Circuit....
ORDER: Ninth Circuit....
MANDATE: Ninth Circuit

IBT v.
IBT v.
IBT v.
IBT v.

FMCSA FMCSA FMCSA FMCSA -

1
37
39
42

IV

TABLE OF AUTHORITIES
CASES

pages

American Trucking Ass’ns v. FMCSA,
724 F.3d 243 (D.C. Cir. 2013).... .........
Aulenback v. FHWA,
103 F.3d 156 (D.C. Cir. 1997)
Brinker v. Superior Court of San Diego,
273 P.3d 513 (Cal. 2012)....,.....................

7

18

6

Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, 467 U.S. 837 (1984).......... 11, 17, 19
Cicairos v. Summit Logistics, Inc.
133 Cal App.4th 949 (2006)..........

3

County of Sacramento v. Lewis,
523 U.S. 833 (1998)....................

14

DeShaneyv. Winnebago County Dept, of Social
Servs., 489 U.S. 189 (1989)....................................

14

Missouri K.&T. Ry. Co. v. United States.
231 U.S. 112(1913)....................................

16

Owner-Operator Independent Drivers Ass’n
v. FMCSA, 494 F.3d 188 (D.C. Cir. 2007)....

6

Owner-Operator Independent Drivers Ass’n
v. FMCSA, 656 F.3d 580 (7th Cir. 2011)........

8

Owner-Operator Independent Drivers Ass’n
v. Pena, 996 F.2d 338 (D.C. Cir. 1993).........

18

V

Public Citizen v. FMCSA,
374 F.3d 1209 (D.C. Cir. 2004)
Rochin v. California,
342 U.S. 165 (1952) .

3, 13, 15

10, 14, 18, 19

Tull v. United States,
481 U.S. 412 (1987) ..

16

United States v. Southern Pacific Co.
245 Fed. 722 (9th Cir. 1917)................

15

Youngberg v. Romeo,
457 U.S. 307 (1982) ..
STATUTES
42 U.S.C.
49 U.S.C.
49 U.S.C.
49 U.S.C.
49 U.S.C.
49 U.S.C.
49 U.S.C.
49 U.S.C.

§
§
§
§
§
§
§
§

1985...............
113(c).............
30162.............
31136.............
31137(f)(1)(A)
31141.............
31502.............
351(a)............

REGULATORY MATERIALS

49 C.F.R. § 390.36(b)(2)
49 C.F.R. § 395............
73 F.R. 79204..............
80 F.R. 78383..............
83 F.R. 67470..............
84 F.R. 48079..... ........
85 F.R. 33403-33447...

10, 11, 15, 18
pages
........2, 17
2, 4, 6, 11
4
2, 13, 15, 17, 19
8
12, 16, 17-19
.... 15, 17, 19
18

pages
.......... 8, 19
3, 13, 15, 16
6
13, 16
..9, 16
9
9, 16

VI

OTHER REFERENCES

pages

Belzer, Michael, Sweatshops on Wheels,
Oxford, 2000................................................

19

Caro, Robert, Means ofAscent,
Knopf, 1990.................................

18

Heavy Duty Trucking Magazine
www.truckinginfo.com/news.....

6

National Highway Traffic Safety Administration
2017 Fatal Motor Vehicle Crashes............ .............

9

National Highway Traffic Safety Administration
Fatality Analysis Reporting System
3, 5, 8
National Highway Traffic Safety Administration
Traffic Safety Facts—Large Trucks
7, 12
New York Times

7

Overdrive Magazine

11

Parkhurst, Mike, Trucker Wars,
Hollywood Continental Films, 2013

12

Pittsburgh Post Gazette

5

Scandinavian Journal of
Urology and Nephrology.

3

University of Michigan
Transportation Research Institute

6

1
OPINIONS BELOW
The Opinion of the Court of Appeals for the Ninth
Circuit is reproduced on page 1 of the Appendix.
The Order denying a Petition for Panel Rehearing
is reproduced on page 37 of the Appendix.
The Order denying four petitions for Panel Re­
hearing and Rehearing En Banc is reproduced on
page 39 of the Appendix.
The Mandate of the Court of Appeals for the Ninth
Circuit is reproduced on page 42 of the Appendix.
JURISDICTION
The Judgment of the Court of Appeals was entered
January 15th 2021. A Petition for Panel Rehearing
was filed on January 24th 2021 which was denied the
following day on January 25th 2021. A Petition for
Rehearing En Banc was filed on February 7th 2021
and a second Petition for Rehearing En Banc along
with two additional petitions for Panel Rehearing
and Rehearing En Banc were filed on March 1st
2021, which were denied on March 25th 2021. This
Court has Jurisdiction under 28 U.S.C. § 1254(l).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment providesCongress shall make no law...abridging...
the right of the people peaceably to assemble...
The Seventh Amendment providesIn suits at common law, where the value in

2

controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no
fact tried by a jury shall be otherwise re­
examined in any Court of the United States,
than according to the rules of the common law.
The Fourteenth Amendment providesNo State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. 1985 providesIf two or more persons...conspire or go in
disguise...for the purpose of preventing or
hindering...the equal protection of the laws...
the party so injured or deprived may have an
action for the recovery of damages.
49 U.S.C. § 113(c) providesThe head of the Administration shall be...an
individual with professional experience in
motor carrier safety.
49 U.S.C. § 31136(a)(4) providesAt a minimum, the regulations shall ensure
that... the operation of commercial motor
vehicles does not have a deleterious effect on
the physical condition of the operators.

3

STATEMENT OF THE CASE
In 2004, the DC Circuit Court of Appeals
vacated the Federal Motor Carrier Safety Adminis­
tration’s truckers’ hours of service rules promulgated
under 49 C.F.R. 395 because the agency failed to
consider their impact on driver health. For instance,
bus drivers (unable to stop for breaks) were found to
have an increased risk of bladder cancer, while men
able to drink additional fluids had reduced risk.1
“It may be the case, for example, that driving
for extended periods of time and sleep depriva­
tion cause drivers long-term back problems, or
harm drivers’ immune systems. The agency
may of course think that these and other
effects on drivers are not problematic...but if
so it was incumbent on it to say so in the rule
and to explain why.” Public Citizen v. FMCSA,
374 F.3d 1209, 1217 (D.C. Cir. 2004)
Consistent with this decision, a California court
ruled that truckers had to receive meal and rest
breaks—reducing tractor-trailer occupant fatalities
sixty percent between 2002 and 2010.2 Cicairos v.
Summit Logistics, Inc., 133 Cal App.4th 949 (2006).
However, on April 26th 2006, four students and an
employee of Taylor University, a small Evangelical
Christian college, were killed by an overworked

1 R.C. Reulen et al., “A meta-analysis on the association
between bladder cancer and occupation”; M. Brinkman, M.P.
Zeegers, “Nutrition, total fluid, and bladder cancer,”
Scandinavian Journal of Urology and Nephrology, Sept. 2008
2 Fatabty Analysis Reporting System, NHTSA, wwwfars.nhtsa.dot.gov

4

trucker who allegedly fell asleep at the wheel near
Fort Wayne Indiana. Due to a mix-up by the
coroner, a student so horrifically crushed she was
unrecognizable was buried in the wrong grave while
another was nursed back to health by the dead girl’s
parents.3 Though the mix-up had nothing whatso­
ever to do with motor carrier safety, three weeks
later in response to sensational media outrage,
President Bush appointed an alumnus of Taylor
University to lead the Federal Motor Carrier Safety
Administration in violation of the Motor Carrier
Safety Improvement Act of 1999, which required him
to appoint “an individual with professional experi­
ence in motor carrier safety” to head the agency. 49
U.S.C. § 113(c).
Though John H. Hill’s performance as a law
enforcement officer was impeccable prior to his
joining the Bush Administration, he never met the
minimum standard for employment in the motor
carrier safety profession—an above average safety
record driving 18-wheelers. Nor did he publish any­
thing demonstrating expertise designing trucks or
testing safety devices as any reasonable person
would expect of someone with professional experi­
ence in motor carrier safety.
When Hill chose not to legalize modern safety
devices found on cars such as roll bars, crash absor­
bent bumpers, and underride beams, Petitioner filed
a petition under 49 U.S.C. 30162, requiring the
Secretary of Transportation to explain the reason for
the ban within 120 days or to begin a rulemaking to
replace obsolete vehicle size and weight limits with

3 www.taylor.edu/news/taylor-university-observance-of-2006crash-is-next-week

5

cargo size and weight limits that did not ban modern
safety features. When Hill stopped the head of the
Federal Highway Administration’s Size and Weight
Division from responding by promoting him to head
his Enforcement Division, the House Transportation
Committee summoned him to appear on the day the
response was due.
On July 11th 2007, Hill claimed before the
House Transportation Committee that “2005 enjoyed
one of the lowest large-truck fatality rates in thirty
years” when in fact the number of truckers killed on
the job increased 17% from 2002 to 2005 and the
number of pedestrians and bicyclists killed by trucks
increased 29%—a 14 year high. Truckers killed in
daytime multi-vehicle crashes doubled.4
Three
weeks later, the FBI raided the home of the Senate
Commerce Committee Chairman who confirmed him
without a hearing, who was subsequently convicted
of failing to report gifts (USA v. Stevens, DDC-080231, 10/27/08)(Petitioner’s 49th birthday). Charges
were abruptly dropped after Petitioner sent the FBI
a complaint alleging that a dozen truckers killed in
Texas had a greater than fifty-fifty chance of being
victims of wrongful death5; subsequently provoking a
disgruntled trucker to murder eleven Jews at a
synagogue near Pittsburgh on the tenth anniversary
of his conviction—the deadliest attack on Jews in the
history of the United States.6 Leaving office, Hill
blew the whistle claiming, “I thought I would have a
lot of say in truck safety in this country [but] politi-

4 Fatality Analysis Reporting System, NHTSA,
www-fars.nhtsa.dot.gov
5 www.truckingvideo.com/litigation/complaint.pdf
6 Rich Lord, Pittsburgh Post Gazette, 10/29/2018

6
cal people tell the appointed people what they’re
going to do.”7 Without an army to enforce its order,
the DC Circuit could only re-vacate the vacated rules
when they were re-promulgated in violation of the
Administrative Procedures Act.
See OOIDA v.
FMCSA, 494 F.3d 188 (D.C. Cir. 2007).
Consistent with this decision, the agency de­
nied a petition to preempt California’s meal and rest
break rules, 73 F.R. 79,204 (Dec. 24th 2008), and in
2009 it agreed to obey the orders of the DC Circuit
after the Department of Justice refused to defend the
agency (Public Citizen v. FMCSA, DC-09-1094). The
California Supreme Court also upheld the rest break
rules. Brinker v. Superior Court of San Diego, 273
P.3d 513 (Cal. 2012). Within hours of reaching the
settlement agreement, however, the Commerce Com­
mittee confirmed Anne Ferro, President of the Mary­
land Motor Truck Association, as President Obama’s
Federal Motor Carrier Safety Administrator.
Like Hill, Ferro did not meet the minimum
standard for employment in the motor carrier safety
profession—an above average safety record driving
eighteen-wheelers. Nor did she demonstrate experi­
ence designing trucks or testing safety devices as
required under Section 113(c). Blowing the whistle,
Hill claimed, “I can assure you that Anne Ferro is
getting marching orders.”7 His allegation was, not
without support. According to the University of
Michigan Transportation Research Institute, Mary­
land reported only one truck crash after Ferro took
over, compared to 114 crashes per month when Hill
ran the agency.8 Also, the National Highway Traffic

1 www.truckinginfo.com/news/news-detail. asp?news_id=73580
8 csa.fmcsa.dot.gov/Documents/Evaluation-of-the-CSA-Op-

7

Safety Administration reported that trucks drove
one-third more miles under Ferro9 than under Hill.10
Obviously, if crashes are under-reported and miles
driven are exaggerated, an administrator with no
apparent qualifications can appear to improve safety.
Defying both court orders, in 2011 Ferro re­
promulgated the twice-vacated rules with changes
that the Inspector General of the Department of
Transportation later determined were insignificant.11
Unexpectedly, the DC Circuit then reversed itself,
ruling that truckers such as the Petitioner lacked
standing to challenge a trucking regulation despite
having won the two previous cases. American Truck­
ing Ass’ns v. FMCSA, 724 F.3d 243, 249 n.7 (D.C.
Cir. 2013) (“Trescott offers nary an argument in his
briefs as to why his lobbying activities would estab­
lish standing. For this reason, we need not reach the
merits of his arguments.”)(Cert. denied, 13-509, Jan.
13th 2014). Congress responded by mooting this case
in the Consolidated Appropriations Act of 2014 (Pub.
L. 113-235, 128 Stat. 2712)—suspending enforce­
ment of Ferro’s reforms. However, the judge who
authored the opinion was allowed to retire and keep
her pension—provoking another irate trucker to kill
seven people and himself on the second anniversary
of her retirement.12
In response, Petitioner proposed an automatic
system with rest break rules similar to Section 11090

Model-Test.pdf
9 wwwnrd.nhtsa.dot.gov/Pubs/811628.pdf
10 wwwnrd.nhtsa.dot.gov/Pubs/811158.pdf
n www.oig.dot.gov/libraryitem/35549
12 Lucinda Holt, Manny Fernandez, “West Texas Shooting
Spree Terrorized Two Towns and Killed 7,” New York Times,
9/1/2019

8
of the California Labor Code.13 This was enacted as
the Commercial Motor Vehicle Safety Enhancement
Act of 2012—requiring the agency to equip trucks
with electronic logging devices “capable of recording
a driver’s hours of service and duty status accurately
and automatically,” 49 U.S.C. § 31137(f)(1)(A)—
removing language permitting the devices to “be
used to monitor productivity of the operators”
(31137(a)-superceded). However, the agency failed
to redact 49 C.F.R. § 390.36(b)(2) allowing carriers
“to monitor productivity [or strike participation] of a
driver.” The proposed device had no tracking ability.
In defiance of the new law, on December 16th
2015, the agency re-promulgated (with minor chang­
es) an electronic logging devices rule vacated by the
7th Circuit because the agency failed to ensure that
electronic monitoring would not be used to harass
drivers. 49 C.F.R. § 395.8 et seq., 80 F.R. 78383. See
Owner-Operator Independent Drivers Ass’n v.
FMCSA, 656 F.3d 580 (7th Cir. 2011). Although the
agency claimed that the purpose of monitoring
citizens with tracking devices was to improve safety,
the effect of electronic monitoring was to preempt
California’s meal and rest break rules rather than
extend them nationwide. Instead of receiving ad­
ditional breaks, truckers could be ordered to drive up
to eight hours without a break, then be ordered to
remain for thirty minutes at a place of the employer’s
choosing to prevent them from participating in any
protests. This resulted in 28% more truckers being
killed on the job in 2017 than in 2014 and 68% more
than in 200914 because they forced truckers to race

13 www.truckingvideo.com/hos.htm
14 Fatality Analysis Reporting System, NHTSA,

9
against the clock to arrive at a safe pace to park
before running out of driving time, violating speed
limits whenever delayed by weather or traffic, then
fall asleep instantly at a time determined by a
computer. Other than hypnotism, the only known
method for human beings to sleep on command is to
take powerful sedatives or drink dangerous amounts
of alcohol. Not surprisingly, alcohol related truck
fatalities jumped sixty percent in just one year when
this politically motivated rule went into effect in
2017—harming both highway safety and driver
health.15
Nevertheless, in contradiction of its 2008
Determination, on December 21st 2018, the agency
issued a new Determination preempting California’s
meal and rest break laws. 83 F.R. 67470. Ignoring
both court orders, on Sept. 12th 2019, the agency
ordered the hours of service rules twice vacated by
the DC Circuit “restored to full force and effect.” 84
F.R. 48079.
At the height of the Coronavirus
epidemic on June 1st 2020, the agency ruled that “the
2005 rule would not have any effect on these
potential health issues,” 85 F.R. 33403, even though
the agency found additional rest provided “health
benefits in the form of decreased mortality risk based
on decreases in daily driving time, and possible
increases in sleep.” 85 F.R. 33447. An additional
1,457 truckers and 3,242 motorists were killed on the
highways since tracking devices were first required
in 2009.14

wwwfars.nhtsa.dot.gov
15 NHTSA, 2017 Fatal Motor Vehicle Crashes' Overview, p.5

10
REASONS FOR GRANTING THE WRIT
The 9th Circuit has entered a decision that
has so far departed from the accepted and usual
course of judicial proceedings as to call for an
exercise of this Court’s supervisory power.
A.
A half-million Americans have lost their lives
due to a coronavirus epidemic attributable in part to
long haul trucking. Dependence on obsolete 18wheelers for food delivery decades after truckers
decided to replace them with modern intermodal
vehicles has prevented local governments from shut­
ting down highways to prevent its spread. This court
ruled, “due process of law requires an evaluation
based on disinterested inquiry pursued in the spirit
of science, on a balanced order of facts [and] the
detached consideration of conflicting claims.” Rochin
v. California 342 U.S. 165 at 172 (1952). As Justice
Powell wrote for a unanimous court in Youngberg v.
Romeo, 457 U.S. 307 at 321 (1982) (quoting 644 F.2d
at 178):
“If there is to be any uniformity in protecting
these interests, this balancing cannot be left to
the unguided discretion of a judge ... the
Constitution only requires that the courts
make certain that professional judgment in
fact was exercised (internal quotes omitted)
...By "professional" decision-maker, we mean a
person competent, whether by education,
training or experience, to make the particular
decision at issue.” Id. at 323 n.30.
Congress made clear in The Motor Carrier Safety
Improvement Act of 1999 that only “an individual

11
with professional experience in motor carrier safety”
may make preemption determinations. 49 U.S.C. §
113(c). The court’s Chevron Part I analysis should
therefore have ended when Respondents failed to
dispute allegations that court orders were ignored by
a person lacking professional experience who failed
to comply with all of the legal requirements of
rulemaking. Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837 (1984).
The 9th Circuit’s conclusions that it need not
“address these arguments, as IBT Local 2785 failed
to argue these issues with any specificity in [its]
briefing” even though their Intervenor did so, or
“[t]hese issues are also not part of the FMCSA’s
preemption determination and are thus not before
us” (see App. p. 35 n.5), reveal that the panel did not
satisfy the due process requirement that it “make
certain that professional judgment in fact was
exercised” as required in Youngberg. A court is not
supposed to “vacate various federal regulations” (id.)
when Congress requires “professional experience”
under 49 U.S.C. § 113(c) or “clear evidence” that
Congress intended preemption under Executive
Order 13132; it is supposed to enforce existing court
orders. A court cannot vacate a regulation that has
already been vacated by another court. Granting
Chevron Part II deference to a twice-convicted drunk
driver posing as a motor carrier safety professional16
creates the same appearance of corruption that

16 September 1987, Fairfax County, Virginia; August 1989,
Nassau County, New York. When Federal Motor Carrier
Safety Administrator Raymond P. Martinez was supposedly
acquiring an above-average safety record driving 18-wheelers,
he was actually working as an assistant to First Lady Nancy
Reagan.; James Jaillet, Overdrive, November 6th 2017.

12
stopped a nomination to this Court,17 provoking the
deadly reprisals described above. A circuit court
ignoring another circuit court’s orders calls for an
exercise of this Court’s supervisory power.
B.
The National Highway Traffic Safety Adminis­
tration’s Traffic Safety Facts—Large Trucks fact
sheets18 show that in states with meal and rest break
laws,19 single vehicle trucker fatalities, such as
running off the road or falling asleep at the wheel,
increased by one-third after tracking devices were
required until they matched the high rates seen in
non-rest-break states—killing an additional 50
truckers per year. In California, single vehicle
trucker fatalities more than doubled 118% between
2014 and 2017, confirming that its meal and rest
break laws had a significant safety benefit—reducing
trucker fatalities sixty percent during the nine years
they were being enforced. Yet, they were preempted
in violation of 49 U.S.C. § 31141(c)(4)(A), which
provides that “the State law or regulation may be
enforced unless [it] has no safety benefit.”
It is well known that the Tea Party Movement
began with a nationwide trucker strike on the 200th
anniversary of the Boston Tea Party in 1973.20 On

17 DC-14-90026, DC-14-900275 DC-15-90023, DC-15-90024
18 DOT HS 812 150; DOT HS 812 279; DOT HS 812 373; DOT
HS 812 497! DOT HS 812 663 (see state tabulations)
19 California, Colorado, Connecticut, Delaware, Illinois,
Kentucky, Maine, Maryland, Massachusetts, Minnesota,
Nebraska, Nevada, New Hampshire, New York, North Dakota,
Oregon, Rhode Island, Tennessee, Vermont, Washington, and
West Virginia
20 Mike Parkhurst, Trucker Wars, Hollywood Continental
Films, 2013

13
the 242nd anniversary of the Boston Tea Party,
December 16th 2015, the agency required trucks to be
equipped with tracking devices that forced truckers
to skip state mandated meal and rest breaks,
increasing trucker fatalities sixty-eight percent (see
above p. 8). 49 C.F.R. § 395.8 et seq., 80 F.R. 78383.
Thus, the real reason for preempting California’s
meal and rest break laws was to prevent protests—
not to improve safety. Citizens monitored by track­
ing devices who are forbidden by their employers to
stop to rest are unable “peaceably to assemble” as
guaranteed by the First Amendment. Regulations
promulgated under Section 31136 must comply with
a Congressional mandate: “At a minimum, the
regulations shall ensure that... the operation of com­
mercial motor vehicles does not have a deleterious
effect on the physical condition of the operators.” 49
U.S.C. § 31136(a)(4). As the DC Circuit ruled, “[i]ts
failure to do so, standing alone, requires us to vacate
the entire rule as arbitrary and capricious.” Public
Citizen at 1217.
Numerology is normally a part of astrology,
not law. However, when courts do certain things on
certain dates, one can be reasonably certain that
someone in the courthouse is trying to send a mes­
sage, such as when the Commerce Committee Chair­
man was convicted of failing to report gifts on
Petitioner’s birthday (see above p. 5), or when the 7th
Circuit published its opinion in a related tracking
devices case on Halloween (cert, denied 15-1263; 161228). While the actions of the 9th Circuit are not as
egregious as those of the 7th Circuit in suppressing
evidence, such as serving documents at Petitioner’s
home knowing it would be impossible to timely
receive them, or requiring Petitioner to block a road
in front of a post office by denying truckers the use of

14
the court’s electronic case filing system, or the DC
Circuit denying standing to truckers; to issue its
Mandate on Good Friday (see Appendix p. 42), the
traditional anniversary of the death of Christ, in
response to the reprisal against Jews (see above p. 5)
has so far departed from the accepted and usual
course of judicial proceedings as to call for an
exercise of this Court’s supervisory power.

C.

This Court has recognized “that deliberate
indifference is egregious enough to state a substant­
ive due process claim.” See County of Sacramento v.
Lewis, 523 U.S. 833 (1998):
“conduct intended to injure in some way un­
justifiable by any government interest is the
sort of official action most likely to rise to the
conscience-shocking level ... Historically, this
guarantee of due process has been applied to
deliberate decisions of government officials to
deprive a person of life, liberty, or property”
(quoting Daniels v. Williams, 474 U.S. at 331).
Justice Rehnquist wrote in DeShaney v. Winnebago
County Dept, of Social Servs., 489 U.S. 189, 200
(1989):
“it is the State’s affirmative act of restraining
the individual’s freedom to act on his own
behalf—through...restraint of personal liberty
—which is the ‘deprivation of liberty’ trigger­
ing the protections of the Due Process Clause.”
In Rochin, a stomach pump was used to extract a
confession in the same manner that tracking devices
are used to extract confessions from truckers who

15
choose to stop to eat, rest, or protest without their
employer’s permission. The twice-vacated rule found
under 49 C.F.R. § 395.3(a) (“nor shall any such
driver drive...unless the driver complies with the
following requirements”) is an individual mandate
that violates “liberty interests in freedom of move­
ment and in personal security [that] can be limited
only by an overriding, non-punitive state interest.”
Youngberg at 313 (internal quotes omitted). Thus,
when Congress stipulates that rules must be needed
under 49 U.S.C. §§ 31136(c)(2)(B) & 31502(b)(2), the
burden of proof falls on the agency, not the
petitioners. It is difficult to understand why hours of
service rules are needed when modern intermodal
vehicles21 can dramatically reduce the hours truckers
need to work. The agency responded to Petitioner’s
petition to replace obsolete 18-wheelers with modern
vehicles by replacing truckers with foreign workers
(■see above p. 4). The only historical precedent for
this was in 1934 when the Boeing company decided
to replace rickety biplanes with modern airliners and
President Roosevelt transferred its airmail contracts
to the Army, causing a dramatic increase in crashes
—which World War I Ace Eddie Rickenbacker called
“legalized murder.”22 See Public Citizen at 1220
(“This directive, in our view, required the agency, at
a minimum, to collect and analyze data on the costs
and benefits”).
D.
The 9th Circuit did not address the apparent
conflict with its 103-year-old precedent in United
States v. Southern Pacific Co. 245 Fed. 722 (9th Cir.

21 US Patents 6494313, 6776299, 6840724, 6910844, & 7070062
22 Chronicle ofAviation, JOL, 1992, p. 315

16
1917) that a temporary relief from duty where
employees had to remain in the vicinity was a form
of on-duty time. This flows from the this Court’s
107-year-old precedent in Missouri K.&T. Ry. Co. v.
United States. 231 U.S. 112 (1913) that “[e]mployees,
though inactive, are none the less on duty...where
they are under orders, liable to be called upon at any
moment, and not at liberty to go away.” The 9th
Circuit has not explained why wages no longer must
be paid to drivers for this type of “on duty” time
when they are “not at liberty to go away” and likely
to be “called upon at any moment” by customers or
dispatchers, such as when they are “under orders” to
take a mandatory 30-minute break from driving
under 49 C.F.R. § 395.3(a)(3)(h).
The agency
recently acknowledged that such “on duty” breaks
made some drivers “more tired.” 85 F.R. 33416.
The Secretary’s own statistical evidence shows
that preemption of state meal and rest break laws
actually occurred on December 16th 2015, 80 F.R.
78383, long before California’s civil penalties and
wage orders were preempted on December 21st 2018.
83 F.R. 67470. Thus, the present case in practical
effect is purely financial, requiring a trial by jury. In
claiming jurisdiction under 49 U.S.C. § 31141(f)(2) to
resolve what is essentially a wage dispute (see App.
pp. 14, 17), the 9th Circuit is in conflict with this
court’s decision in Tull v. United States, 481 U.S.
412, 421 n.5 (1987) holding that the 7th Amendment
applies to cases involving civil penalties to abate
interferences with public health or safety.
The 9th Circuit’s ruling that the FMCSA
reasonably determined that a State law “on com­
mercial motor vehicle safety” is one that “imposes
requirements in an area of regulation that is already
addressed by a regulation promulgated under [sec-

17
tion] 31136” (see App. pp. 15, 19, 23), is unsupported
by citation of any federal regulation requiring
employers to provide “off duty” breaks as required
under California law wherein drivers are “at liberty
to go away,” not “under orders,” or “liable to be called
upon at any moment.” Nor has The 9th Circuit cited
any instance of California regulating a commercial
motor vehicle by requiring safety devices to be
installed or placing a vehicle out of service to enforce
its meal and rest break laws. California’s remedies
are purely financial, having nothing at all to do with
the operation of commercial motor vehicles,
In
failing to include any discussion about why vehicles
owned and operated by self-employed truckers are
not being regulated, the 9th Circuit failed to dif­
ferentiate between commercial motor vehicle regula­
tions under Section 31136, which do not involve civil
penalties, and motor carrier regulations promulgated
under 49 U.S.C. 31502 that do, which fall outside the
Secretary’s jurisdiction for preemption under 31141.
The 9th Circuit’s Chevron Part I analysis failed
to address the claim that in granting jurisdiction to
courts of appeals and removing all references to the
“Commercial Motor Vehicle Safety Regulatory Re­
view Panel” originally required under The Motor
Carrier Safety Act of 1984, Pub. L. No. 98-554, title
II, 98 Stat. 2829, 2832 (49 U.S.C. § 31131-superceded; Pub. L. No. 103*272, 108 Stat. 745); Congress
expressed a clear intent to limit agency jurisdiction
to laws not covered by the 7th Amendment. Now,
truckers are not only treated unequally compared to
other California workers, they are prevented from
recovering damages under 42 U.S.C. 1985.
E.
When Rochin was decided in 1952, this Court
would normally grant about two hundred of the five

18
hundred petitions received each year. Today, the
circuit courts have been so corrupted by cronyism
that this Court grants only a small fraction of the
thousands of petitions it receives annually. To end
the long-standing practice of suppressing evidence23
by abusing courts of appeals as courts of first
impression with non-randomly-assigned politically
connected judges whose orders are simply ignored if
they do not do what they are told and are rewarded
with Supreme Court nominations if they do, this
Court should grant this petition to broadly extend
the due process standard stated in Rochin and
Youngberg to all government agencies.
The Federal Motor Carrier Safety Administra­
tion did not exist when the transfer of authority from
the Interstate Commerce Commission to the Nation­
al Transportation Safety Board (both quasi-judicial
bodies equivalent to a jury for Seventh Amendment
purposes) occurred in 1966, therefore, appellate
courts are not constitutionally adequate to review its
administrator’s decisions. The Department of Trans­
portation Act states that only authority “specifically
assigned to the Administrator...may be reviewed
judicially...in the same way as...before the transfer
or assignment.” Pub. L. 89-670, 80 Stat. 931, 49
U.S.C. § 351(a). See Aulenback v. FHWA, 103 F.3d
156 (D.C. Cir. 1997) (holding that courts of appeals
have jurisdiction to review actions of Department of
Transportation agencies only if the action is taken
pursuant to authority that was transferred from the
Interstate Commerce Commission); Owner-Operator
Independent Drivers Ass’n v. Pena, 996 F.2d 338
(D.C. Cir. 1993) (same). Authority in Section 31141

23 Robert Caro, Means ofAscent, Knopf 1990, p.380

19
was not specifically assigned by Congress to the
Federal Motor Carrier Safety Administrator. Appel­
late jurisdiction under Section 31141(f)(1) should
therefore be limited to safe design and construction
of commercial motor vehicles under Section 31136,
not regulations of the personal lives of citizens
promulgated under Sections 31502 and 390.36(b)(2)
(“to monitor productivity [strike activity] of a driver”)
shown to have no safety benefit. The threshold
amount triggering 7th Amendment protections is far
exceeded by the loss of additional pay allowed under
California law if meals are skipped, not to mention
the approximately thirty percent reduction in wages
resulting from truckers’ inability to bargain collec­
tively24—which benefited the Commerce Committee
Chairman not convicted of receiving gifts (Presiden­
tial Candidate John McCain) who’s wife owned a
trucking company that distributed beer.
It is difficult to imagine by what psychic power
an unskilled person could learn the trade secrets of
truckers so as to be able to perform a valid costbenefit analysis without being apprenticed in the
trade. Because safety determinations require special
expertise not possessed by ordinary persons, not
unlike courts of law, when an impostor impersonates
a safety professional (or a judge), an impostor’s
decision does not carry the same weight as a valid
court order to be appealed and is in fact just an
ordinary tort. Therefore, to maintain impartiality in
the spirit of science, Rochin at 172, and make certain
that professional judgment is exercised, Youngberg
at 321, a court should defer to an agency under
Chevron Part II only if a decision-maker possesses

24 Michael Belzer, Sweatshops on Wheels, Oxford, 2000, p.122

20

professional experience. If a political appointee lacks
such expertise, then a court’s Chevron Part I
analysis should end when Congress makes clear that
professional experience is required,
One may
reasonably argue that the intent of Congress is that
professional judgment is always required.
CONCLUSION
This petition should be granted to make
certain that professional judgment is exercised in
every government agency.

William B. Trescott
26276 Farm to Market Road 457
Bay City, Texas 77414
(979) 244-3134

